No.

1*1 “?)<?-

3ti®&e

Supreme Court of tfje ®nttefc States.

HANH THAI WILLIAMS.
Petitioner;
v.
SUCCESSION OF FRED LANGFORD HOUSTON,
Respondent.

On Petition For A Writ Of Certiorari To
The Louisiana 2nd Circuit Court Of Appeal

PETITION FOR A WRIT OF CERTIORARI

Hanh Thai Williams
Pro Se
10010 Ferry Creek Drive
Shreveport, Louisiana 71106
(318) 393-5872
williamshanh@gmail. com

QUESTIONS PRESENTED
1.

Whether Armand Roos’ participation as Plaintiff’s
attorney and primary witness was procedurally
and evidentiary concern a violation of Due Pro­
cess. Further, Roos’ familiarity with the trial judge
and Petitioner’s two attorney witness by a hand­
shake and shoulder clasp in front of the jury, along
with the admittedly false testimony of plaintiff’s
accountant and accounting and the denial of right
to present evidence was unfair and deprivation of
Due Process pursuant to the Fourteenth Amend­
ment.

2.

Judge Jeff Cox was the writing judge in the Loui­
siana Second Circuit Court of Appeals. At the time
of the trial in District Court, Jeff Cox was running
against a 20-year incumbent for the appellate
court. Following the district court trial and verdict,
Cox received campaign contributions from the
Wiener, Wiess & Madison law firm, Roos and all
the attorneys that worked on this case. Cox won
the election and immediately became the writing
Judge. The question presented is whether Judge
Cox’s failure to disclose these contributions is vio­
lative of the Due Process Clause of the Fourteenth
Amendment.

11

STATEMENT OF RELATED CASES
Succession of Fred Langford Houston, No. 52,181-CA,
Court of Appeal, Second Circuit, State of Louisiana.
Judgment entered August 15, 2018.
Succession of Fred Langford Houston, No. 525,127,1st
Judicial District Court, Parish of Caddo, State of Loui­
siana. Judgment entered December 15, 2016.
Succession of Fred Langford Houston, No. 2019-C-0458,
Supreme Court of the State of Louisiana. Review de­
nied May 20, 2019.

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED..................................

1

STATEMENT OF RELATED CASES..................

11

TABLE OF CONTENTS........................................

m

TABLE OF AUTHORITIES...................................

IV

OPINIONS BELOW................................................

1

JURISDICTION......................................................

1

CONSTITUTIONAL PROVISION INVOLVED....

1

STATEMENT OF THE CASE...........................

2

REASONS FOR GRANTING THE PETITION

4

CONCLUSION...................................................

38

APPENDIX
Court of Appeal, Second Circuit, State of Lou­
isiana, Opinion, August 15, 2018.................... App. 1
Court of Appeal, Second Circuit, State of Lou­
isiana, Order of Recusal, August 16, 2018.... App. 39
Court of Appeal, Second Circuit, State of Lou­
isiana, Orders on Rehearing, February 20,
App. 41
2019
First Judicial District, Parish of Caddo, State of
Louisiana, Judgment, December 15, 2016 ....App. 43
First Judicial District, Parish of Caddo, State of
Louisiana, Jury Verdict Form, November 15,
App. 45
2016
Supreme Court of the State of Louisiana, De­
App. 48
nial, May 20, 2019

IV

TABLE OF AUTHORITIES
Page
Cases:
Caperton v. A.T. Massey Coal Co.,
556 U.S. 868 (2009)...............................................

4

Commonwealth Coating Corp v. Con’t Cus. Co.,
393 U.S. 145 (1968)...............................................

4

Farrington u. Law Firm of Sessions, Fishman,
96-1486 (La. 2/25/97), 687 So.2d 997................

18

Matthews v. Stolier,
No. 13-6638, 2015 U.S. dist. LEXIS 171752
(D.C. La. December 23, 2015).............................

18

Morris v. Owens-Illinois, Inc.,
582 So.2d 1349 (La. App. 2 Cir. 1991),
writ denied, 588 So.2d 1119 (La. 1991)...........

22

Rosell v. Esco,
549 So.2d 840 (La. 1989).....................................

22

United States v. Prantil,
764 F.2d 548.......................................................... 14, 17
Constitutional Provisions, Rules and Statutes:
U.S. Const. Amend. XIV................................

1

Louisiana Code of Evidence Article 803(3)

36

Louisiana Revised Statute 9:2088....

32,33,39

Louisiana Revised Statute 9:2234....

......29,39

Louisiana Revised Statute 9:2234(A)

29

Louisiana Trust Code..........................

4

1
OPINIONS BELOW
The opinion of the Louisiana 2nd circuit court is
published at__ So.3d___ (2018).

JURISDICTION
The jurisdiction of this court is invoked under 28
U.S.C. § 1257(a).

CONSTITUTIONAL PROVISION INVOLVED
The 14th amendment to the U.S. Constitution pro­
vided in relevant part:
“No state shall . . . deprive any person of life,
liberty, or property, without due process of
law ...”

This appeal by Petitioner, Hanh T. Williams
arises from a jury trial beginning October 31, 2016,
awarding $1,100,000.00 in damages from a Trust
claim and $460,605.00 from the Estate claim, forfeiting
her testamentary twenty percent (20%) compensation,
together with legal interests and costs of the proceed­
ings.
The Petition for Appeal was filed on March 20,
2017. Petitioner was granted an Appeal by order dated
March 22, 2017. An opinion was issued by the Second
Circuit Court of Appeal on August 15, 2018, written by
Judge Jeff Cox. A request for rehearing was timely

2
filed by Petitioner. On August 17, 2018, two days after
the opinion was written, the entire Second Circuit
recused. On October 8, 2018, the Louisiana Supreme
Court transferred the matter to the Third Circuit
Court of Appeal which denied Petitioner’s Motion for
Rehearing on February 20, 2019. A Writ Application to
the Louisiana Supreme Court was timely made and de­
nied without an opinion.

STATEMENT OF THE CASE
Petitioner respectfully requests this Court review
the fundamentally unfair proceeding which resulted in
a substantial verdict against Hanh Williams which
should be reviewed and reversed as it has and will con­
tinue to ruin this individual but more cogently, a fair
trial was denied. Further, the departure from proper
judicial proceedings in allowing the attorney to become
a witness and testify beyond personal knowledge with
no designation of an expert by wearing the mantel of
court sanctioned independent executor, attorney of rec­
ord, with accompanying perceived expertise by the jury
and familiarity with the trial judge.
In this case, Armand Roos, the attorney for the
Plaintiff, who also served as the Dative Independent
Executor, appointed two (2) years after the Testator’s
death, was Plaintiff’s most expansive witness. The
trial court allowed the attorney, over objection, to
testify on all aspects of plaintiff’s allegations, causes
of action, and damages. The attorney/witness had no

3

personal knowledge of the underlying transactions,
facts or people relating to the Testator/Trustee. When
he was listed as a witness, he was deposed shortly be­
fore trial. However, the attorney-client/work product
privilege was used to block salient areas of inquiry.
(Roos’ Depo p. 7).
At the conclusion of his testimony to the jury, the
attorney/witness stood up and approached the trial
judge, shaking hands and clasping his shoulder in an
obvious display of familiarity and perceived bias, wit­
nessed by the jurors who were still in the courtroom. A
mistrial was immediately requested. This was a very
small courtroom with Roos’ table next to the jury box.
The Petitioner, a female Vietnamese immigrant, who
escaped communist Vietnam at age 14, sat at the fur­
thest table from the jury box. The witness box was a
single chair.
Louisiana judges are elected. The trial judge, Ra­
mon Lafitte, was elected without opposition in 2008
and re-elected unopposed in 2014. His next election
would be in 2020. The trial was in 2016.
After the trial Roos, the lead counsel (John Fra­
zier), the Weiner, Weiss & Madison law firm and two
partners of the firm gave contributions to Judge Ra­
mon Lafitte. While the case was on appeal several
motions were filed by plaintiff to revoke property
transfers and for distribution of Succession funds to
Roos and his law firm, Weiner, Weiss & Madison. Plain­
tiff, his attorneys and law firm gave the trial judge

4
$3,000 which was more than XA of his $11,000 debt
(personal loan to his campaign).
Finally, the Court of Appeal has erroneously inter­
preted the laws that provide fundamental due process
in a jury trial, the application of the Trust Code’s
preemption and evidentiary interpretations of intent
which decisions will cause material injustice to the Pe­
titioner. One issue revolved around whether an annual
accounting was provided. This issue was not presented
to the jury and thus, not answered.
Additionally, any tribunal permitted by law to try
cases and controversies not only must be unbiased but
also must avoid even the appearance of bias. Common­
wealth Coating Corp v. Cont’l Cus. Co., 393 U.S. 145,
150 (1968). Also, Caperton v. A.T. Massey Coal Co., 556
U.S. 868 (2009). The writing judge, Jeff Cox, in the Lou­
isiana 2nd Circuit receive multiple contributions from
plaintiff, the attorneys for plaintiff in this case, their
associates and the law firm. Judge Cox was elected to
the 2nd circuit court of appeals and immediately be­
came the writing judge. Judge Cox did not disclose
these contributions to the Petitioner. If he had Peti­
tioner could have moved for his recusation.

REASONS FOR GRANTING THE PETITION
On September 23, 2008, Fred Lanford Houston
Died. According to Houston’s Will, Hanh Williams was
the Independent Executrix, entitled to receive twenty
percent (20%) of the Estate value. She opened the

5
Succession with an attorney on September 30, 2008.
Six (6) of the seven (7) legacies were delivered as set
forth in the Will. The Will also allowed for a Testamen­
tary Trust or foundation to be established which was
Williams’ intent through an independent law firm. On
July 2, 2009, the State of Louisiana intervened and
filed various pleadings and discovery requests. On Sep­
tember 1, 2010, the Succession was converted to regu­
lar administration with a co-executer, Armand Roos, to
serve with Williams.
On September 17, 2010, Williams voluntarily and
for the purposes of moving the matter forward tempo­
rarily stepped aside as the Executrix. Armand Roos
would not be cp-executor of the Estate with her or any­
one else. Mr. Roos then was appointed by the Court as
the Dative Independent Administrator. The Judgment
provided that Williams was entitled to receive compen­
sation for her services as Executrix of the Succession
of Fred Langford Houston at twenty percent (20%).
Armand Roos then enrolled himself as attorney for
the Estate. At that time, it was the intent of the parties
that Attorney Roos would wind up the affairs of the
Estate, in short order. Consequently, he was allowed an
hourly rate of $365.00 rather than the statutory (2Vz)
percent. However, Attorney Roos filed a Petition and
later an Amended and Restated Petition against Wil­
liams scrutinizing the activities of an Inter Vivos Trust
established by Houston during his lifetime as well as
the activities of the Estate.

6
Motion in Limine were filed and the jury trial com­
menced on October 31, 2016, eight years after Hou­
ston’s death and six years after Roos’ appointment, not
completing until November 15, 2016, due to numerous
interruptions for court holidays. After a forty (40) mi­
nute jury deliberation, the jury returned a substantial
verdict against Williams. (Court Minutes R. 10)

FACTS
After Eleanor Houston died, her widower, Fred
Houston (“Houston”), brought her life insurance policy
to the Jefferson Pilot Office in Shreveport, Louisiana
in 2002. At that time, Houston met Hanh Williams
(“Williams”) and requested she assist him in collecting
the proceeds. They were introduced by Jack Yost who
ran the office and trained Williams. Mr. Yost considered
her his best agent in a fifty (50) year career. Houston
continued to come to Williams for investment advice.
She was very successful in increasing his portfolio.
They became friends and Houston took up more and
more of her time to the point she stopped taking on
new clients. Over time, he requested Williams to help
him managed his wife’s oil and gas interests. The oil
and gas interests were complicated working interests
in Webster Parish with Samson and El Paso. It re­
quired an expertise to determine when to participate,
if to participate and how to monitor the participation
to maximize the return. Williams, with the help of a
local geologist, Rick Taylor, developed a knowledge

7

that increased (triple) Houston’s return from the Web­
ster Parish oil and gas interests.
Williams attempted to teach Houston on how to
manage these minerals, but he refused and insisted
that Williams continue to manage these mineral work­
ing interests. He gave Williams one half to do so. Wil­
liams received this one half before the trust was
created and thereafter. The trust agreement recog­
nized Williams’ half interest in the minerals.
Because of Williams’ business acumen, she also
successfully advised Houston’s conversion of assets
into investments and annuities, which greatly in­
creased his net worth. She also successfully litigated
on behalf of Houston, increasing a stream of income
from a Coushatta Truck Stop rental property from
$18,000.00 to $60,000.00 a year.
Over time Houston depended on Williams to man­
age his business affairs. Most Sundays he had dinner
with Williams and her children. In addition, he had fre­
quent, if not daily, interaction with Williams request­
ing her advice.
Jack Yost testified about the relationship between
the two and of Williams’ efforts on behalf of Houston.
Houston gave Williams his Power of Attorney on Sep­
tember 2,2003. In 2005, he also made her his agent for
health care decisions. On August 3, 2005, Houston
formed the “Fred L Houston Inter Vivos Trust.” Local
Attorney, Jerry Jones, drafted the Trust. Houston placed
most of his assets, but not all, in the Trust. As testified
by Mr. Jones at trial, Houston trusted Williams and he

8
needed protection from his bad habits, so Attorney
Jones performed his due diligence to be sure Williams
herself was not taking advantage of Houston. His “bad
habits” were prostitutes and cocaine.
Tom Chavanne, a local accountant, kept the books
for the Trust and concurred with Mr. Jones’ trial testi­
mony that Houston trusted Williams to take care of his
affairs and was aware, through scheduled as well as
informal meetings, of the Trust assets, transactions,
tax returns and accounting worksheets; all Houston’s
questions were answered. Houston considered Wil­
liams to be his daughter. He had no children or imme­
diate family.
With the advice of counsel, Dan Lagrone, Houston
then drafted a Will leaving six (6) specific legacies to
individuals and the remainder of his Estate to a Trust
to benefit LSU School of Veterinary Medicine to fund
pet oncologic research. Houston made Williams the In­
dependent Executrix with compensation set at twenty
percent (20%) of the Estate. Pam Branagan notarized
the Will. She also described Houston’s relationship to
Williams as father/daughter.
Under the terms of the Trust, Williams was to be
compensated with her fifty percent (50%) of the profit
of the Webster Parish oil and gas revenues, which she
managed before and during the Trust. This clause ac­
tually recognized Williams’ ownership of one half of the
working mineral interest. Williams was also entitled,
under the Trust Instrument, to additional compensation

9
and reimbursement of her expenses. (See, Trust Instru­
ment D-2, Section 7.6).
Williams paid all of Houston’s bills, including all
of his daily living expenses. She also advanced him, at
his request, cash. The arrangement was subject to ac­
counting by Tom Chavanne and the legal advice of Dan
Lagrone, a local attorney.1 It was efficient and effective
in allowing Houston to conduct the lifestyle he chose
without becoming penniless. In fact, Williams’ busi­
ness acumen, increased the value of his Estate.
Soon after Houston died, Williams opened the Suc­
cession with legal representation. Legacies under the
Will were distributed. The Webster Parish oil and gas
working interests were continued to be managed prof­
itably. Houston’s home on W. Cavett in Shreveport,
Louisiana, was in disrepair. This was remedied and the
house sold as well as his vehicles. The annuities with
death benefits Williams had advised were cashed re­
sulting in a huge financial benefit to the Estate. Wil­
liams then asked another law firm, to implement the
Testamentary Trust provisions of the Will. Williams
retained Curtis Shelton to supplement the interim ac­
counting deal with the State of Louisiana attorney’s
and bring the Succession to a Judgment of Possession.
Larry Porter, CPA, was engaged to handle the Es­
tate accounting. After Mr. Shelton’s numerous battles
with the LSU Vet School attorneys, all parties agreed,
with the consent of Williams, that Roos would be
1 Dan Lagrone died before the trial and obviously could not
testify.

10
appointed the Executor, in hopes of quickly wrapping
up the affairs of Houston. That was a pipe dream. LSU
Vet school was dismissed. Roos eventually sued Wil­
liams. Roos and his law firm has taken most of the Suc­
cession funds.
The trial of this case was continued at the request
of Plaintiff on more than one occasion. Petitioner coun­
sel objected to the last trial setting because of the
many interruptions anticipated.
Since the Plaintiff would not agree to a continu­
ance as suggested by the trial court, the jury trial of
this matter started on October 31, 2016 with declared
interruptions of All Saints Day, Election Day, Court
Holiday and Veteran’s Day. These interruptions oc­
curred at critical times during Petitioner’s presenta­
tion so that three (3) days passed between Petitioner’s
first significant witness and the resumption of trial
testimony and three and one-half (3V6) days between
Williams’ direct examination and the cross. The redi­
rect of Petitioner came after the start of the third week
of the jury trial and after the jury had been told the
case would have been given to them the day before.
Consequently, Petitioner’s crucial rebutting testimony
and exhibits were presented to a frustrated, impatient
and inattentive jury. Despite the complexities of the ev­
idence, the length of trial and the complicated inter­
rogatories given to the jury, the deliberation lasted
from 12:14 p.m. until 1:05 p.m. with a 9 to 3 vote
against Petitioner. (See, Appendices XI, 1).

11
During the course of the trial, Plaintiff called
one (1) attorney, Armand Roos, and another attorney,
Curtis Shelton, hired by Petitioner to set up the trust
as provided for in the last testament and will, two (2)
collateral witnesses and a recently hired accountant.
Petitioner on the other hand called several witnesses
who had personal knowledge of the relationship be­
tween Houston and Williams and the fact that the
dealings between them were appropriate and moni­
tored by accounting and attorney professionals. (See,
Testimony of Tom Chavanne, Hanh Williams, Jerry
Jones, Jack Yost, Pam Branagan, and Larry Porter,
CPA). Tom Chavanne dealt with Houston in a Trust
setting. Attorney Shelton and Larry Porter assisted
Williams with the Estate. However, the trial judge
would not allow these witnesses to testify to Houston’s
intent.
Plaintiff’s lead counsel hired his wife, Alice Fra­
zier, to do an accounting. She had no personal knowl­
edge of Houston and Williams or the Trust or Estate
activities. She made assumptions requested by Plain­
tiff’s attorney, Armand Roos. She misread the Trust in­
strument to exclude compensation to Williams for the
oil and gas working interests which she claimed Wil­
liams was not entitled to. Although available, Alice
Frazier did not testify. Rather, a new CPA, testified as
to what Frazier report stated.
The new CPA witness testified that the reason she
could not fully explain the Trust accounting to the jury
was because Williams would not produce her personal
bank statements. This was simply not true. The next

12
day at trial the Plaintiffs attorney attempted to in­
troduce those very same personal bank statements
which were in his possession and did so as Plaintiff’s
Exhibit 90. A mistrial was requested and should have
been granted on this significantly false suggestion to
the jury that Williams was not being honest and forth­
right. Plaintiff only called Roos and this accountant to
establish a breach of fiduciary duty. Consequently, the
question testimony was significantly prejudicial. All
this resulted in a forty (40) minute jury deliberation in
which twelve (12) jurors in a 9 to 3 vote, elected a fore­
person, answered eleven interrogatories, awarded a
million and one-half dollars, all without eating lunch
or asking for any evidence. Obviously, the majority of
this jury was simply ready to be done and a fair trial
was denied Williams.
A. The trial court committed error in allowing
Armand Roos, attorney of record, to testify
on all aspects of the case even though he had
no personal knowledge of the matter, had not
been designated as an expert and refused to
answer pertinent questions at his pre-trial
deposition. His participation as attorney, court
appointed administrator of the Estate and fa­
miliarity with the judge and the attorney/
witnesses was so fundamentally unfair it was
a deprivation of due process.
By agreement of the parties, at the hearing on Sep­
tember 17,2010, Armand Roos became the Independent
Executor. He then enrolled himself as attorney of

13
record. However, on the joint pre-trial order he was
listed as a witness. He was not listed as an expert and
no report was furnished. Consequently, Attorney Roos’
deposition was taken a few days before trial (October
13, 2016) to determine why he was listed as a witness
since he was the attorney of record. The attorney-client
privilege was asserted when questions were directed to
Attorney Roos about the scope of his anticipated testi­
mony. (Roos Depo. R7). This deposition was introduced
into the record at the December 13,2016 hearing. Roos
was asked if he was performing legal services and he
answered in the affirmative. (Roos Depo. R 14). When
specifically asked about his testimony at the upcoming
trial, Mr. Tabor: “That’s privileged, and I’m going to in­
struct you not to answer that to the extent it calls for
privileged information.” (Roos Depo. P. 16). When
asked if his hourly charges were for Executor fees or
attorney work, he responded, “both”.
When asked what exhibits Attorney Roos may
use at the trial of this case for any purpose, the objec­
tion of attorney-client privilege was made. (Roos Depo.
P.65). Even though the date was October 13, 2016, at
3:00 in the afternoon, counsel refused to allow Attor­
ney Roos to answer questions concerning the exhibits
and witness testimony that would be presented at the
October 31, 2016 trial. (Roos Depo. P.68).
However, at trial he was the Plaintiff’s primary
witness. To add to the unfairness, at the end of this tes­
timony, while jurors were still in the courtroom, he rose
from his chair (4th floor courtroom of the Caddo Court­
house has no true witness stand) moved to the judge

14
and engaged him in a greeting that was more than a
handshake. A mistrial was requested. Since the Plain­
tiff’s primary witness was Roos who knew nothing per­
sonally about the matter in question and a recently
retained accountant interpreting another CPA’s ac­
counting, this conduct and testimony of the attorney of
record was very unfair and prejudicial. Defendant was
denied a fair trial. She appeared to the jury as an out­
sider. U.S. v. Prantil, 764 F.2d 548.
Attorney Roos’ characterization of the partici­
pants on the Plaintiff’s side was also unfair:
Q.

You mentioned Alice Frazier, who is Alice
Frazier?

A.

Alice Frazier is the tax, the tax partner
with Heard, McElroy, & Vestal, local ac­
counting firm. She is Meg Frazier’s mom,
my partner John Frazier’s wife and very,
very good friend of mine and a great ac­
countant.

Attorney Roos was then allowed, unfairly, to com­
ment on accounting (he was not listed as an expert).
He was then allowed to introduce tax returns that he
did not prepare, over objection of counsel. He was then
asked (again not tendered as an expert) questions
about amended Trust Estate Returns. These were
shown to the jury, although objections were made.
When Attorney Roos responded that there were mis­
takes in previous returns filed by Petitioner, this
caused the need for repeated objections by Petitioner
counsel to keep out obvious opinions from a witness

15
who was not listed as an expert and from whom Peti­
tioner was not allowed fair discovery in a deposition
two (2) weeks before trial. The unfairness of allowing
the attorney of record to testify in a jury case was high­
lighted when objection as to exceeding the scope of a
lay witness would be sustained and then Plaintiff’s
counsel would simply ask what Attorney Roos did
in addressing alleged improprieties which response
would be allowed and would be taken by a lay jury as
fact. (See Appendices XI, 3).
Attorney Roos was then asked questions about the
DeSoto Parish litigation on which a Motion in Limine
had been filed to exclude. Attorney Roos was the attor­
ney of record in the DeSoto Parish litigation. The infor­
mation allowed through Attorney Roos’ testimony was
very prejudicial to Williams and caused repeated ob­
jections by Petitioner counsel to inappropriate ques­
tions.
An objection was entered that Attorney Roos was
not an expert, but an attorney enrolled in the Desoto
Parish case. However, Attorney Roos was allowed to
answer that question despite strenuous sidebar argu­
ment.
Then incredibly, the witness was asked, “Are these
additional amounts that you’re asking the jury to
award the Succession in connection with recovering
(Desoto Parish) minerals? Yes sir, they are. What is
that amount?” To continue the unusual proceeding,
Roos was then allowed to read the allegations from
the Desoto Parish petition. Objection was timely

16
made. However, counsel for Plaintiff continued to ask
improper questions requiring petitioner counsel to ob­
ject repeatedly. Not of record are the numerous sidebars concerning this witness’ testimony which were
conducted in the courtroom, off the record, in the pres­
ence of the jury. Despite numerous objections, the
judge allowed counsel of record to go through the alle­
gations of the Desoto Parish petition, explaining it to
the jury. Again, wearing the mantle of a court ap­
pointed Independent Executor and an attorney who
practices trust and estate law. The scenario of the at­
torney of record reading the allegations of his Petition
against the Petitioner to the jury and commenting with
repeated objections by the petitioner counsel, was bi­
zarre, particularly with the court overruling petitioner
counsel’s objections suggesting to the jury that these
allegations were true without any evidence.
This abuse which deprived Williams of any chance
of a fair trial then morphed into a request by the at­
torney of record, Armand Roos, for money. Petitioner
counsel’s frustration with inappropriate questions
suggesting factual occurrences which needed evidence
not argument, is evident on page 3968 of the Record.
All of this took place in front of the jury unfairly de­
priving Williams of any chance that subsequent pro­
ceedings could result in a fair trial. The witness’
testimony concerning opinions continued. Finally, de­
fense counsel moved for a mistrial.
“He has been placed on the witness stand and of­
ten asked questions that would elicit an expert opin­
ion. I’ve been put to the task of having to object

17
repeatedly, as the record will reflect, to that and its con­
tinuing even until the very end of this testimony which
I think should have been over long ago.” The judge al­
lowed the attorney of record to tell the jury what
money they should award. (R 3984).
Attorney Roos has no personal knowledge of the
relationship between Houston and Williams or what
occurred before he became involved in September of
2010. At the conclusion of his testimony, he approached
the judge with a handshake, shoulder clasp and famil­
iar conduct in front of jurors, prompting a second mo­
tion for mistrial in connection with this unfortunate
deprivation of Williams’ right to a fair trial. (R. 4015).
In addition, Attorney Roos, wearing the cloak of
the court sanctioned Dative Independent Executor and
an attorney hat, approached Petitioner’s professional
witnesses, Jerry Jones and Curtis Shelton (attorneys),
clasping their shoulder, shaking their hand, in view of
jurors. This was inappropriate and grounds for a mis­
trial. After his testimony, Attorney Roos stayed in the
courtroom participating, passing notes continually to
other counsel and making suggestions, on a few occa­
sions, loud enough so the remarks could be heard by
the jury. Consequently, the environment of the court­
room was unfairly hostile to Williams. She was simply
viewed by the jury as an outsider, who was not part of
the courthouse network, which is not evidence, but
which prejudiced the jury against her. The jury went
into its brief deliberation and deprived her of a fair
trial. The court’s explanation in United States v.
Prantil, supra, is illustrative:

18
“The advocate-witness rule prohibits an attor­
ney from appearing as both a witness and an
advocate in the same litigation. The venerable
rule is a necessary corollary to the more fun­
damental tenet of our adversarial system that
juries are to ground their decisions on the
facts of a case and not on the integrity or
credibility of the advocates. Accordingly, ad­
herence to this time-honored rule is more
than just an ethical obligation of individual
counsel; enforcement of the rule is a matter of
institutional concern implicating the basic
foundations of our system of justice.”
In Matthews v. Stolier, No. 13-6638, 2015 U.S. Dist.
LEXIS 171752 (D.C. La. December 23, 2015), the court
held that the circumstances of the negotiations of the
transactions would be key to proving several of plain­
tiffs’ claims, including their fraud, malpractice, and
breach of fiduciary duty claims. As the attorney had
unique personal knowledge of the circumstances of
these negotiations based on her participation as coun­
sel for plaintiffs, the court held that she would be a
necessary witness. Finding no applicable exception,
the court granted the motion to disqualify the attorney.
Petitioner respectfully suggests that the Second
Circuit’s addressing of this issue was misplaced. Peti­
tioner did not raise an issue under the Code of Profes­
sional Responsibility (Rule 3.7). The issue being raised
is more fundamental to the due process right to a fair
trial. The opinion of the La. Second Circuit does not
address this assignment of error. In fact, the case cited,
Farrington v. law firm of Sessions, Fishman, 96-1486

19
(La. 2/25/97) 687 So.2d 997, is factually different and
the language in that case is supportive of Applicant’s
position.
B. The jury verdict was clearly erroneous
based upon the evidence, particularly a
finding of gross negligence which deprived
Williams of her testamentary 20% Executrix
fee as well as ownership of V2 half of the
Webster Parish working mineral interest.
Plaintiff’s case consisted primarily of one (1) at­
torney, himself, and a hired CPA, none of whom would
know Houston from a two (2) person lineup. None of
them had any personal knowledge of the personal or
professional dealings between Williams and Houston
prior to his death. In fact, no witness called by Plaintiff
did. Significantly, the Petitioner witnesses did know
Houston and what he was attempting to accomplish
with his Trust and his Will with Williams:
Q.

My question to you Mr. Jones, in your dis­
cussions with Mr. Houston, what was he
trying to do?

A.

Mr. Houston was wanting to essentially
protect himself from his money - Mr.
Houston has no family, he has no chil­
dren, no one that he was close to. He was
a good bit of, access to a good bit of money.
He has some personal habits that were
destructive, he knew they were destruc­
tive, and he was concerned that if he did

20
not basically put a buffer between himself
and his money that it might be gone.
(Testimony of Jerry Jones, the attorney who drafted
the Trust). Mr. Jones, an attorney in Shreveport at
the time, went on to state that he had several meet­
ings with Houston to be sure Williams was not taking
advantage of Houston. Mr. Jones took his role as the
attorney drafting the Trust seriously and ensured
that Williams was not exerting undue influence.
Jack Yost, the manager of the business where Wil­
liams worked and her mentor, testified about the pro­
gression of Houston’s dealings with the Jefferson Pilot
office and why Houston chose Williams to manage his
affairs after his wife died. Mr. Yost had personal deal­
ings with Houston, and personal knowledge of his busi­
ness interest and personal knowledge of Williams’
abilities and her relationship with Houston. He felt
Williams was one of the better agents he had hired in
his fifty (50) years in the business and that she was
honest.
Pam Branagan who notarized the Will and the
Affidavit of Death and Heirship confirmed that Hou­
ston had no family. She also confirmed that the rela­
tionship between Houston and Williams was like
father-daughter. It did not surprise Branagan that
Houston wanted Williams to have twenty percent
(20%) of his Estate. (R. 4274).
Likewise, the testimony of Tom Chavanne, ac­
countant for Houston and preparer of his tax returns

21
in the years before his death, confirmed that Williams
and Houston had a good relationship like fatherdaughter and that Houston intended for Williams to
protect him from his bad habits.
Houston knew exactly what Williams was doing
for him, how much it was costing and how his money
was being managed. During his time as accountant,
Chavanne was not aware of any improprieties in the
management of the Trust or other financial arrange­
ments.
Likewise, Larry Porter, a CPA who handled the
Estate accounting was asked:
Q. Mr. Porter, out of - after reviewing all of
these documents and all that you re­
viewed and coming in here and sharing
your opinions with the jury, have you seen
any evidence that Ms. Williams did any­
thing wrong in the handling of the Trust
or the Estate as the trustee or the inde­
pendent executrix?
A. I have no evidence, no, sir.
(R. 4445-4446)
The testimony of these individuals who had per­
sonal knowledge of the relationship, factual dealing
and financial matters between Houston and Williams
should not be trumped by the testimony of one attor­
ney (Roos) and a retained accountant who had no
personal information. There was no other probative ev­
idence about the relationship and the financial dealing

22
based upon a firsthand knowledge other than what the
Petitioner presented. The jury’s finding of a breach of
a fiduciary duty to a gross negligence degree, in forty
(40) minutes or less, was clearly erroneous. See Rosell
v. Esco, 549 So2d 840 (La 1989). See also, Morris u.
Owens-Illinois, Inc., 582 So2d 1349 (La App. 2 Cir.
1991), writ denied, 588 So2d 1119 (La 1991).
C. The confusing testimony of Plaintiff’s re­
tained accountant combined with mislead­
ing presentation of the accounting was
significant enough to justify a mistrial or
reversal.
One (1) of two (2) professional witnesses presented
by Plaintiff at this trial was retained to reconstruct
an accounting done by Alice Frazier, Plaintiff’s lead at­
torney’s wife, concerning the Trust and the Estate.
This witness has no first-hand knowledge concerning
the working of the Trust or the relationship between
Williams and Houston. In preparing her testimony, the
retained witness requested documentation from Attor­
ney Roos, which the accountant never received. If At­
torney Roos did not provide her with what she felt was
sufficient documentation, she classified the expense as
a distribution to the Trustee.
The retained witness testified that she asked to
see Williams’ personal bank accounts and did not re­
ceive them. During redirect, the trial court allowed coun­
sel for Plaintiff to question the accountant as to the
availability of Williams’ personal checking accounting.

23
The trial judge allowed counsel for Plaintiff to “testify”
as to “facts” without any foundation and elicit a re­
sponse that the accountant had “heard” that. (R. 4135).
Counsel for Plaintiff then asked:
Q.

Now, Ms. Killough, are you aware of Mr.
Roos asking Ms. Williams for her own
checking accounts, do you know if that’s
come up?

A.

I believe - yes, sir, many times. I was told
that it was requested.

Q. And we’re sitting here and we don’t have
any of that checking account information,
do we?
A.

No, sir

Q.

So, Mr. Woodley seemed to be insinuating
that you had asking from Mr. Roos and
Mr. Roos just didn’t get it, but in reality,
Ms. Williams wouldn’t give it to him; is
that correct?
MR. WOODLEY: I’m going to have to
object to this. If he’s going to testify, he re­
allyTHE COURT: Actually, it’s
been answered. Next question.

already

Q.

(By Mr. Tabor) Let me ask it this way, Ms.
Killough, different question.

A.

Okay.

Q.

Would it be extremely helpful for review­
ing what went out of the estate and where

24
that money went if we could just look at
Ms. Williams’ bank accounts?
A.

It would be -

(R. 4135, 4136).
The next day, during the cross-examination of
Larry Porter, a witness for the Petitioner, the attorney
for Plaintiff produced Williams personal bank records
and questioned Porter about them. Counsel for Plain­
tiff was allowed to use this evidence, over objection, to
insinuate checks made out to the Trust were inappro­
priately deposited into Williams’ personal checking ac­
count. There were the same documents counsel for
Plaintiff has just discussed with the retained witness
Killough who denied they were produced and suggest­
ing Williams was hiding important financial infor­
mation.
At the conclusion of Porter’s testimony, Petitioner
moved for a mistrial on the basis of the significant mis­
step and, as importantly, the presentation of evidence
by counsel which either he or the witness should have
known to be false, but still presented to a lay jury. (R.
4405-4406).
The trial court recognized that counsel for Plain­
tiff had proffered inaccurate testimony and that the
witness had misrepresented the facts. The trial court
felt this could be handled on cross or with another wit­
ness. That is not the case.
The only inference which could have been drawn
from this inaccurate testimony was that Williams had

25

used her own personal accounts to siphon funds from
the Trust and hide it from the Estate and refused to
provide the bank account information which would
have proven it. The jury was led to believe Williams
had something to hide; otherwise, why would she resist
the Executor’s requests. That erroneous presumption
could not be addressed through some other witness.
Testimony that the records would have been helpful;
along with the testimony that the records had been re­
quested many times but not provided, was so prejudi­
cial there was no way to overcome it at trial.
In addition, there was no true forensic accounting
presented to the lay jury as indicated by Attachment K
to Plaintiff’s Exhibit 26. This was supposed to be a rec­
onciliation of the Trust accounting; however, a quick
review of Attachment K establishes that if Attorney
Roos could not determine the circumstances surround­
ing a sum of money, it was simply attributed to Hanh
Williams as improper compensation or money she re­
ceived and owed the Estate with no underlying proof.
This procedure was in direct contradiction to the
testimony of Jerry Jones and Tom Chavanne. As an ex­
ample, Variance Number 3 in Attachment K attributes
Franklin Templeton money totaling $257,893.62 to
Williams. (See Appendices XI, 4). Williams never re­
ceived this money and there is no proof that she ever
received this money. In fact, the testimony at trial was
that Houston received this money directly. It was never
deposited into the Trust. Without any evidence or jus­
tification to place these substantial amounts of cash
assets to Williams, the Plaintiff’s accounting witness

26
simply did so at the request of Roos. Again, this was
contradicted by the testimony of Petitioner. Plaintiff’s
Exhibit 26 brought the total to $325,096.51 of cash to
Williams that Item Number 3 on Attachment K indi­
cated could not be explained so these amounts were
simply attributable to Williams. See also, Variance 10
of Attachment K, Appendices XI, 4):
Heard, McElroy, & Vestal, LLC was given no
information as to the location of the difference
of $325,096.51 and therefore, it has been clas­
sified as a distribution made to Hanh Wil­
liams, Trustee. (Attachment E).
There is no evidence to support this decision.
Compounding the accounting error, the Plaintiff
simply allocated fifty percent (50%) of the Webster Par­
ish mineral interests as unauthorized compensation to
Williams when, in fact, the Trust Agreement provided
this amount of money was to be given to her as Trustee
compensation. (See Variance 7, Attachment K, Plain­
tiff’s Exhibit 26). With no evidence and in direct con­
tradiction to the testimony of Jerry Jones, Plaintiff
has simply allocated this amount of money to Hanh
Williams as unauthorized compensation. (See Appen­
dices XI, 4).
A review of the Variances attached as Attachment
K to the Plaintiff’s Forensic Accounting, established
that if an amount could not be explained to the satis­
faction of Attorney Roos, it was simply attributable
to Williams as unauthorized compensation and in­
cluded in the Plaintiff’s accounting as to the “Trust

27

distributions” that Williams supposedly “received
without appropriate authorization.”
It is important because the amount of Plaintiff’s
attorney requested at the closing argument, was the
exact amount the jury, during its forty (40) minute de­
liberation, placed in the blank, 1.1 million for the
Trust, which is simply incorrect when understood in
the context of the Variances on Attachment K, the tes­
timony of Tom Chavanne, Jerry Jones, and Larry Por­
ter. Plaintiff has only two (2) witnesses on this issue:
Roos and newly hired Elizabeth Killough who took the
place of Alice Frazier. Ms. Frazier did not testify. These
two (2) assumptions: (a) Williams gets no compensa­
tion even if authorized; and (b) Hanh Williams must
pay anything Roos decided was not explained to his
satisfaction, are thin and do no comport with generally
accepted accounting principles.
In addition, some assets were never transferred to
the Trust by Mr. Houston. Rather, he kept those assets
in his individual name and when the assets were liq­
uidated, he received the funds. As shown by the testi­
mony of Ms. Killough and Williams, all of the Franklin
Templeton funds were deposited into Houston’s per­
sonal checking account at Chase Bank. These amounts
should not have been allocated to Williams as im­
proper Trustee compensation as was done by Plain­
tiff’s accountant and ultimately, the jury.
Attachment E to the report prepared by Alice
Frazier, also sets forth amounts she allocated to
Williams because she did not know where else to put

28
them. These amounts include payments of a Trustee
fee as allowed by the Trust document and approved
by Houston as well as payment of 50% of the Sampson
El Paso Webster mineral revenue which the Trust In­
strument provided would form a part of Williams’ com­
pensation as Trustee. Larry Porter properly allocated
these amounts in his report and explained in his testi­
mony why these amounts were valid payments to Wil­
liams under the terms of the Trust. Jerry Jones would
have offered the same testimony. The payments from
Sampson El Paso, as shown by Mr. Porter, were
properly classified as Trustee compensation under the
terms of the Trust. These amounts should not have
been erroneously classified. Actually, these mineral in­
terests belonged to Williams before the Trust. The
agreement with Houston was Williams would do the
work and she got half.
The jury erred in its finding that Williams re­
ceived $1,101,512.37 improperly from the Trust. Wil­
liams did not receive $325,096.21 of this figure as those
amounts were paid directly to Houston and not to the
Trust. Houston, individually, then dealt with those
funds. A large amount of the other $776,415.86 repre­
sents payments made by Sampson El Paso for working
interest payments under the terms of a lease. Those
amounts, as shown by Larry Porter, were proper Trus­
tee compensation under the terms of the Trust.

29
D. Claims arising from the Trust preempted and
should not have been presented to the jury.
The Dative Independent Executor alleged breaches
of fiduciary duty by Williams both in her capacity as
Trustee and in her capacity as Executrix. These al­
leged breaches are separate and distinct from each
other. The claims against Williams as Trustee assert­
ing breaches of fiduciary duty are governed by the two
(2) and three (3) year preemptive periods set forth in
La. R.S. 9:2234.
All claims against a beneficiary for acts, omissions
or beaches of duty must be brought within two (2)
years of the date a trustee renders an accounting for
the period in which the alleged act occurred or within
three (3) years of the date an accounting is rendered
for the period in which the alleged act occurred. La.
R.S. 9:2234(A). The evidence at the trial established
that accountings were rendered to Houston, settlor
and beneficiary of the Trust, on a regular basis by Tom
Chavanne, the Trust’s accountant. Chavanne has vast
experience in trust accounting and was recognized by
the court as an expert witness. Chavanne knew Hou­
ston personally. At trial, Chavanne presented the court
with a listing of all the accounting transactions of the
Trust from its inception through Houston’s death.
This is a detailed transaction list of all the ac­
counting entries for the Trust, for the list of the Trust
for 2005 to 2008. The transactions are in order of ac­
counts. Like on Page 1, you’ll see OIB checking in the
top left. As you go through this report, you’ll see those

30
headers change. First, you’ll see all the activity, mon­
eys go into and out of the checking account, and as you
progress down the chart of accounts, it would show you
the detailed transaction for income accounts and ex­
pense accounts. (R. 4452).
Chavanne met with Houston and Williams in his
capacity as the accountant for the Trust regularly.
Q.

Now, in 2007, 2008 when you were doing
the accounting work for the Trust and Mr.
Houston, did you have occasion to visit
with Mr. Houston?

A.

Yes.

Q. At that point he was a client of you as-an
accountant?
A.

Correct.

Q.

Was he about himself; in other words, was
he competent in your opinion to managed
his affairs?

A.

Oh, definitely.

Q.

Did he come by the office where Ms. Hanh
Williams was officing, and were you ulti­
mately officed on Youree Drive on a regu­
lar basis?

A.

Yes

Q.

Mr. Chavanne, did you ever - were you
ever present when Fred Houston and
Hanh Williams discussed business about
the Trust?

31
A.

Yes.

Q.

On occasion, were you actually there in
the capacity as the accountant for the
Trust?

A.

Yes.

(R.4455)
During those meetings, the three (3) individuals
reviewed the log of Trust activity maintained by Wil­
liams and went over all the transactions involving
Trust assets. Mr. Chavanne explained that entries in
the transaction register which reflect payments to Wil­
liams for cash to Houston in the way Houston directed.
Williams also gave Houston receipts for Trust ex­
penses which showed Trust expenditures. Houston
kept those receipts and it is small wonder Williams
could not reproduce them at trial. This represents a le­
gally sufficient accounting.
Chavanne testified he met with Houston and re­
viewed the Trust transaction register and the Trust
bank statement. Chavanne was available to answer
any questions Houston had about the income and ex­
penses of the Trust when they met.
The record also established that a schedule of
Trust property was included in the original Trust doc­
ument. (D-2). Houston was well aware of the property
and that there were no changes.
Chavanne provided Houston a statement of reve­
nues and expenses for the Trust on a monthly basis
when they went over all expenses and checking

32
account data. This is a sufficient accounting under the
law.
This testimony was supported by the testimony of
Williams who testified she regularly went over all of
the accounts with Houston, in detail, at least every two
(2) weeks. (R. 4544).
A Trust tax return was prepared for each year.
Williams also testified she, Chavanne and Houston
went over all Trust finances and discussed the assets
in the Trust.
Section 2088 of Title 9 of the Louisiana Revised
Statues requires an annual accounting by a trustee
that shows:
in detail all receipts and disbursements of
cash and all receipts and deliveries of other
trust property during the year and shall set
forth a list of all items of trust property at the
end of the year.
Chavanne’s testimony shows that an accounting
was rendered to Houston on a monthly basis. Chavanne
began performing his duties as accountant for the Trust
in 2007. As he explained, at that time Chavanne ob­
tained the necessary information from Williams and
Houston to prepare an accounting from the inception
of the Trust through the date he began doing the ac­
counting and reviewed the source documents.
This information was presented to Houston. Those
monthly meetings, along with Chavanne’s preparation
of a list of Estate assets which included Trust property,

33
as well as Trust tax returns were sufficient details of
receipts and disbursements to satisfy the accounting
requirements of the law. There is no legal requirement
that the accounting be rendered in any specific format.
The evidence also showed that the Trust property
did not change over the life of the Trust. Houston was
aware of what property was in the Trust and, through
the monthly meetings, was aware there was no change
to the property.
A listing of the property in the Trust was attached
to the Trust document. (D-2).
The Petition was not filed until October 31, 2011,
more than three (3) years after the Trust accounting.
Because the accountings given to Houston during his
life and to Williams after Houston’s death and the ter­
mination of the Trust were sufficient to satisfy La. R.S.
9:2088, all claims against Williams in her capacity as
Trustee have preempted and should have been dis­
missed by the Court.
E. The intent of Fred Houston as established by
the Will itself, the Trust documents, and the
testimony of several lay witnesses with per­
sonal knowledge was clearly established;
however, questions to witnesses with per­
sonal knowledge on the Testator’s/Settlor’s
intent were not allowed at the trial clearly
prejudicing Petitioner-Applicant.
During examination of Williams, she was asked
to explain the working interests in mineral rights in

34
Webster Parish which was a significant part of Plain­
tiff’s case. Rather than allow that rebuttal testimony
to go forward, Plaintiff’s attorney objected, and the
court impermissibly commented that the witness was
being unresponsive which in a fair reading of the tran­
script was not the case. The Petitioner was then asked
questions concerning the Trust which the court did not
allow although Williams was personally present before
and after the Trust was created. These questions
would establish the facts of how the Trust came into
being.
Q.

All right. Was it clear to you that Mr. Hou­
ston wanted this trust to terminate if he
died or if you died first?

A.

Oh, absolutely. He talked about it and he
asked me to take care of him.
MR. TABOR: Objection, Your Honor, I
don’t know that Ms. Williams can testify
as to what Mr. Houston understood or
didn’t. Its either backdoor hearsay or her
speculating as to Mr. Houston’s intent. I
don’t think its proper.

(R. 4527-4528).
Q.

Now there was a point in time in which
that amount of time was starting to cut
into what you did to earn your living.

A.

Yes. I was not taking any more new cli­
ents because he pretty much consumed
all of my time.

Q.

Did you discuss that with Fred Houston?

35
A.

I discussed that with Fred and that is the
reason he gave me additional compensa­
tion.
MR. TABOR:
COURT:

Objection, Your Honor.

Sustained.

(R. 4528)
Again, a lengthy argument as to why this was per­
missibly testimony and should have been allowed took
place at sidebar.
When matters turned to questions about the Es­
tate the same impediments were met:
Q.

That’s something you had been told?

A.

He told me those are his two cats and he
told me the story.
MR. TABOR:
COURT:

Objection, Your Honor.

Sustained.

Q.

And would you sit down with Mr. Houston
on a weekly or whatever, regular basis,
and go over the amounts of money that
you were out of pocket?

A.

Yes. Fred come to the office at least three
times a week, I have lunch with him of­
ten, probably at least, you know, probably
three or four times per a week and we
would go over everything because he
want to get involved MR. TABOR: Objection, Your Honor.
We’re getting back into he wanted to,

36
what Mr. Houston wanted. We’re right
back in that same area again, it’s im­
proper. It’s hearsay and/or speculation.
COURT:

. . . Sustained.

(R. 4537).
What followed were again extensive sidebar con­
ferences because the court was not allowing inquiry
into the facts of the relationship between Williams and
Houston which explained the course of dealing be­
tween the parties in regard to the Trust and the Will.
These ruling impermissibly interpreted the hearsay
nature of the testimony and the exception of La. C.E.
art. 803(3). More importantly it interfered with the
ability of the Petitioner to tell the true complete story
to defend herself against an attorney, Roos, and a re­
tained accountant who had no knowledge of what had
actually happened. The jury was not about to hear this
testimony which unfairly prejudiced Defendant.
The court continued to restrict the Petitioner’s
ability to respond to the allegations against her. A spe­
cific example is the South Lafourche matter which was
a gift to Williams and used several times during the
trial by Plaintiff to impugn a bad motive to her.
Q.

(By Mr. Pettiette) Okay. Why did he give
it to you?
MR. TABOR:
THE COURT:
hold on.

Objection, Your Honor.
Hold on. Now you can

37
MR. TABOR: He’s either backdooring
hearsay or she’s speculating, either or.
MR. PETTIETTE: If she knows, why
can’t she answer that? ....
THE COURT: I beg to differ. Sustained.
That’s total hearsay.
(R. 4541-4542)
The court continued to sustain objections which
did not allow Williams to explain the South Lafourche
transaction which was used by Plaintiff’s attorney
throughout the trial (before and after her testimony)
as a bad act. Why could the Petitioner not respond to
the allegation in a jury trial alleging a breach of fidu­
ciary duty? This was unfair and there was no eviden­
tiary basis for the exclusion of this testimony. This
improperly restricting Williams testimony was contin­
ued on her redirect which was not immediately after
her direct but four (4) days later because of the inter­
ruption due to the court holidays.
Before trial the Plaintiff argued that Williams
should not be allowed any slack because she is a Viet­
namese immigrant. Yet it was clear during the exami­
nation, both direct and cross, that English is not her
first language. Consequently, the interruptions and
ruling were unfair, frustrating and an impediment to
Williams’ ability to tell the jury what happened.

38
CONCLUSION
The Appellate Court’s opinion did not address the
linchpin of Petitioner’s request: the attorney for Plain­
tiff cannot testify as a non-expert in a civil jury trial
without some foundation such as personal knowledge.
In this jury trial the Plaintiff’s attorney was called
as the main witness and also appeared to be courtsanctioned as he served as the court appointed Admin­
istrator, assuming that position years after the death
of Testator. The fate of this Petitioner was sealed when
the exchange of cordialities and familiarities with the
trial judge took place while the attorney/witness was
still at the witness stand level with the judge in front
of some of the jurors. This deprivation of the funda­
mental right to a fair trial is obvious but underscored
by the less than forty (40) minute jury deliberation
resulting in a substantial award based solely on the
numbers presented at closing by the Plaintiff attorney
all while the jury supposedly navigated eleven (11)
complicated Interrogatories. Certainly, no true deliber­
ation occurred and Petitioner’s due process woefully
shattered. This scenario appears to present a case of
first impression on this issue.
Equally compelling is the fact that Plaintiff called
no witness who either knew Houston, the Testator/
Settlor, or had any personal knowledge of the facts giv­
ing rise to the Will or the Trust. Petitioner did call
friends of Houston, his accountant, his attorney, and
the Petitioner herself.

39
The accounting should be scrutinized by this
Court. It is respectfully submitted this issue has not
gotten a fair review. The accounting method Plaintiff
used by attributing any amount of money to the Pe­
titioner that the Plaintiff could not resolve to his sat­
isfaction does not comport with generally accepted
accounting principles, as indicated by the multiple var­
iances, to the accountant’s report. However, the jury
could not discern the true amount in dispute in what
was likely a forty (40) minute exercise from selecting a
foreperson and announcing a verdict. The convoluted
accounting has never been squarely addressed and
again amounts to a deprivation of due process with
such a large award devastating to the individual Peti­
tioner.
The intent of the Testator/Settlor as established
by the witnesses who knew him was not fairly allowed
into this trial through the testimony of witnesses with
personal knowledge. Finally, the testimony of Tom
Chavanne supplemented with the written exhibits
clearly establish that a Trust accounting was rendered
to the Beneficiary and the Trust claims preempted af­
ter three (3) years. There are few authoritative re­
ported opinions interpreting La. R.S. 9:2088 and La
R.S. 9:2234.
Respectfully submitted,
Hanh Thai Williams, Pro Se
10010 Ferry Creek Drive
Shreveport, LA 71106
Phone: (318) 393-5872
E-mail:
williamshanh@gmail. com

